No. 20-1294
IN THE

Supreme Court of the United States
————
SIMON CAMPBELL AND
PENNSYLVANIANS FOR UNION REFORM,
Petitioners,
v.
PENNSYLVANIA SCHOOL BOARDS ASSOCIATION;
MICHAEL FACCINETTO, SOLELY IN HIS INDIVIDUAL
CAPACITY; DAVID HUTCHINSON, SOLELY IN HIS
INDIVIDUAL CAPACITY; OTTO W. VOIT, III,
SOLELY IN HIS INDIVIDUAL CAPACITY;
KATHY SWOPE, SOLELY IN HER INDIVIDUAL CAPACITY;
LAWRENCE FEINBERG, SOLELY IN HIS INDIVIDUAL
CAPACITY; ERIC WOLFGANG, SOLELY IN HIS
INDIVIDUAL CAPACITY; DANIEL O’KEEFE, SOLELY
IN HIS INDIVIDUAL CAPACITY; DARRYL SCHAEFER,
SOLELY IN HIS INDIVIDUAL CAPACITY; THOMAS KEREK,
SOLELY IN HIS INDIVIDUAL CAPACITY; AND
LYNN FOLTZ, SOLELY IN HER INDIVIDUAL CAPACITY,
Respondents.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit
————
REPLY BRIEF FOR PETITIONERS
————
JACOB C. COHN
ILAN ROSENBERG
GORDON & REES
1717 Arch Street
Philadelphia, PA 19103
(215) 717-4004

ERWIN CHEMERINSKY
Counsel of Record
215 Bancroft Way
Berkeley, California 94720
(510) 642-6483
echemerinsky@berkeley.edu

Counsel for Petitioners
May 28, 2021
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D.C. 20002

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ................................
I.

ii

THE COURTS OF APPEAL ARE
DIVIDED ON AN ISSUE OF NATIONAL
IMPORTANCE...........................................

3

THIS CASE IS AN EXCELLENT
VEHICLE FOR RESOLVING THE
IMPORTANT CONSTITUTIONAL QUESTIONS PRESENTED ...............................

6

A. This Case Centers Squarely on Whether
State Actors’ Petitioning Can Foreclose the Citizens’ Remedies for
Violations of the First Amendment ....

6

B. Respondents’ Attempts to Argue that
There Was No State Action Are a
Misleading Smokescreen .....................

8

CONCLUSION ....................................................

11

II.

(i)

ii
TABLE OF AUTHORITIES
CASES

Page(s)

Brentwood Academy v. Tennessee Secondary
School Athletic Association,
531 U.S. 288 (2001) ................................. 2, 9, 10
CBS, Inc. v. Democratic Nat’l Comm.,
412 U.S. 94 (1973) .....................................

7

Eastern R. Conference v. Noerr Motors,
365 U.S. 127 (1961) ..................................passim
Herr v. Pequea Twp.,
274 F.3d 109 (3d Cir. 2001) ......................

4, 5

Johanns v. Livestock Mktg. Ass’n,
544 U.S. 550 (2005) ...................................

6

Manistee Town Center v. City of Glendale,
227 F.3d 1090 (9th Cir. 2000) ...................

4

Mariana v. Fisher,
338 F.3d 189 (3d Cir. 2003) ......................

4

Pleasant Grove City v. Summum,
555 U.S. 460 (2009) ...................................

6

Sanghvi v. City of Claremont,
328 F.3d 532 (9th Cir. 2003) .....................

4

United Mine Workers v. Pennington,
381 U.S. 657 (1965) ..................................passim
Video Int’l Prod., Inc. v. Warner-Amex
Cable Commc’ns Corp.,
858 F.2d 1075 (5th Cir. 1988) ...................

4

iii
TABLE OF AUTHORITIES—Continued
Page(s)
Walker v. Tex. Div., Sons of Confederate
Veterans, Inc.,
576 U.S. 200 (2015) ...................................

6

Williams v. Mayor & City Council of Balt.,
289 U.S. 36 (1933) .....................................

7

CONSTITUTION
U.S. Const. amend. I ...................................passim
STATUTES
42 U.S.C. § 1983 ...........................................

8

OTHER AUTHORITIES
Mark G. Yudof, WHEN GOVERNMENT
SPEAKS (Univ. of Cal. Press 1983) .........

7

REPLY BRIEF FOR PETITIONERS
This case involves state actors who retaliated against
speech, but then were shielded from liability by the
Noerr-Pennington doctrine. As the Petition demonstrated, the courts of appeals are sharply divided on
the central issue presented by this case: whether
state actors acting under color of state law may invoke
First Amendment petitioning immunity to evade
liability for otherwise-actionable constitutional torts—
here, naked First Amendment retaliation against
citizen critics. Moreover, as highlighted by amicus
curiae Institute for Free Speech, that division of
authority reflects a broader confusion among the lower
courts regarding the proper constitutional balance
between the civil liberties that protect the speech and
petitioning rights of the people, and the government’s
power to counter that speech.
Respondents’ attempts to cast doubt on Petitioners’
arguments are unavailing. They concede that the
Pennsylvania School Boards Association (“PSBA”)
filed the State Lawsuit against Petitioners in express
retaliation for Petitioners’ political speech and petitioning activities. Further, Respondents do not really
take issue with the conclusion of both lower courts that
the State Lawsuit was objectively frivolous, or that the
First Amendment protects all of Petitioners’ Right to
Know Law (“RTKL”) requests and speech.
Instead, Respondents attempt to distract the Court
from the questions clearly presented by the Third
Circuit’s ruling, and this petition, by seeking to reprise
their unsuccessful (and meritless) arguments below
that neither PSBA nor its 10 all-elected-school-boarddirector governing board members were engaged in state
action when they authorized and pursued the plainly
baseless and retaliatory State Lawsuit. But this is a

2
red herring that was effectively dispatched at the
motion to dismiss stage. There, the district court concluded that Petitioners’ Complaint was sufficient to
establish PSBA’s status as a pervasively-entwined state
actor under Brentwood Academy v. Tennessee Secondary
School Athletic Association, 531 U.S. 288 (2001). The
Complaint appended PSBA’s bylaws, as well as a
2005 memorandum from the Chief Counsel of the
Pennsylvania Public School Employees Retirement
System (PSERS) reiterating the Commonwealth’s
decades-long position that PSBA is a “governmental
entity,” and that its employees are public “school
employees” entitled (and required) to participate in a
taxpayer-subsidized pension program. The fact that
neither court below saw any need to further address
this issue is of no moment as it is not before the Court.1
Indeed, if the district court or the Third Circuit had
harbored any doubts as to whether PSBA is a state
actor, considerations of constitutional avoidance would
have counseled that they first decide that issue.
Instead, both courts headed directly into the constitutional thicket to rule on the parties’ supposedly
competing First Amendment interests.
Contrary to Respondents’ contentions, this case is
an ideal vehicle for the Court’s review of the questions
presented. There is an entrenched and deepening split
between the Fifth Circuit on the one hand and the
Third and Ninth Circuits on the other over whether
state actors may claim First Amendment petitioning
immunity to shield their conduct. The Third Circuit’s
decision squarely ruled that state actors are entitled
to invoke the Noerr-Pennington doctrine to avoid liability for filing and prosecuting a SLAPP suit in
1

Respondents have not invited review of the state action issue
by filing a cross-petition for certiorari on that point.

3
retaliation for Petitioners’ protected speech and petitioning. In so ruling, the Third Circuit’s decision upends
and renders toothless the fundamental protections of
the First Amendment itself.
Further, contrary to Respondents’ assertions (at 2829) that this case presents “unique facts” and a “narrow
issue” that is unlikely to recur, the fundamental issue
is broad, and national: whether Noerr-Pennington has
any place in evaluating the liability of state actors—in
the civil rights context or elsewhere. Moreover, as
emphasized in the Petition, the Third Circuit’s ruling
draws a road map for future state actors to retaliate
against their detractors for their constitutionallyprotected speech without fear of incurring liability
under civil rights laws. Indeed, even Respondents
avoid making any representations that PSBA will
not file more retaliatory lawsuits against anyone else
who files RTKL requests seeking to learn what PSBA
does with the millions of taxpayer dollars it receives
annually.
This Court should grant review to resolve the
division of authority among the courts of appeals and
answer these important constitutional questions.
I. THE COURTS OF APPEAL ARE DIVIDED
ON AN ISSUE OF NATIONAL IMPORTANCE
The Court should grant the Petition because the
circuit courts are divided as to whether the NoerrPennington doctrine extends to state actors, as the
Third Circuit acknowledged. App. 14a-16a. It noted
different degrees of scrutiny have been applied to
restrictions on government speech, and that such
variability “is compounded here because there is some
confusion over Noerr-Pennington’s applicability to state

4
actors.” App. 15a. Yet the Third Circuit did nothing to
help clear up the confusion. Only this Court can do that.
The Fifth Circuit has held that “Noerr–Pennington
protection does not apply to the government, of course,
since it is impossible for the government to petition
itself within the meaning of the first amendment.”
Video Int’l Prod., Inc. v. Warner-Amex Cable Commc’ns
Corp., 858 F.2d 1075, 1086 (5th Cir. 1988). The Third
Circuit below reached the opposite conclusion, but did
not explain the basis for its disagreement with the
Fifth Circuit other than to say “we have already
declined to adopt that view.” App. 16a (citing Mariana
v. Fisher, 338 F.3d 189 (3d Cir. 2003)). In Mariana, the
Third Circuit discussed the issue more fully (including
the basis for the court’s disagreement with the Fifth
Circuit), id. at 197-200, but neither it, nor any of the
cases it cites, addressed the nature of government
speech (or its “right” to petition) and the extent to
which it can be “protected” by the First Amendment.2
Nowhere is the existence and significance of this
persistent circuit split made more explicit (or the error
in the Third Circuit’s analysis more apparent) than in
the cogent and scathing dissent of the late Judge
Garth in Herr v. Pequea Twp., 274 F.3d 109 (3d Cir.
2001). There, the dissent underscored—emphasizing
the Fifth Circuit’s Video Int’l Prod., Inc. decision—that
2

The Ninth Circuit also has applied Noerr-Pennington immunity to state actors, particularly when they engage in lobbying in a
representative capacity. See, e.g., Manistee Town Center v. City of
Glendale, 227 F.3d 1090, 1093–94 (9th Cir. 2000) (holding that a
city’s lobbying of a county government to frustrate land development opposed by city residents was protected by the NoerrPennington doctrine as an exercise of “representative democracy”);
Sanghvi v. City of Claremont, 328 F.3d 532, 542–43 (9th Cir.
2003) (same).

5
Noerr-Pennington immunity applies to private parties-not governmental entities-seeking
redress from the government” because “government entities, unlike private citizens, are limited by the Constitution from certain conduct
in ways that individuals are not. . . . Therefore, providing a private citizen an absolute
per se immunity arising from his or her 1st
Amendment right to petition is far different
than providing such an absolute constitutional right to a governmental entity . . . .
Id. at 129 and 130 n.5 (Garth, J. dissenting) (original
emphasis, citations omitted).
The Noerr-Pennington doctrine, and the rationale
behind it, are simply not applicable here because, as
the Fifth Circuit has held (and Judge Garth’s dissent
in Pequea underscored), government actors have no
First Amendment rights—and no right to invoke petitioning immunity to shield them from liability for
overt constitutional violations committed while acting
under color of state law. The Third Circuit, in parting
ways with the Fifth, turned our constitutional framework on its head by holding that the First Amendment
serves to justify, rather than constrain, governmental
overreach—both in Pequea and in this case. See
Pequea, 274 F.3d at 130 (“The majority provides no
authority extending Noerr-Pennington to conduct by
government entities which have been shown to have
acted in violation of constitutional restrictions. Nor do
I know of any authority purporting to extend NoerrPennington in such a way so as to per se defeat
an individual’s constitutional rights . . . .”) (Garth, J.
dissenting) (original emphasis).
Had this case been litigated in the Fifth Circuit, the
result would have come out the other way. This Court

6
should accept review to resolve the split between the
circuits, and restore the principles that underpin our
constitutional framework.
II. THIS CASE IS AN EXCELLENT VEHICLE
FOR RESOLVING THE IMPORTANT CONSTITUTIONAL QUESTIONS PRESENTED
A. This Case Centers Squarely on Whether
State Actors’ Petitioning Can Foreclose
the Citizens’ Remedies for Violations of
the First Amendment
The Constitution speaks in terms of rights of the
citizens and powers of the government. The powers
vested in government are limited by the citizens’ rights,
as well as by structural checks and balances. Government speech is a power, not a right, and is therefore
limited by the First Amendment. Walker v. Tex. Div.,
Sons of Confederate Veterans, Inc., 576 U.S. 200, 20708 (2015); Pleasant Grove City v. Summum, 555 U.S.
460, 467-68 (2009); Johanns v. Livestock Mktg. Ass’n,
544 U.S. 550, 553 (2005).
Enforcing the distinction between the citizens’ right
to petition and engage in free speech under the First
Amendment and the government speech doctrine is
critical to protecting fundamental civil liberties. One
of the core purposes of the First Amendment is to
prevent the government from muzzling those who are
critical of it. Although the government is not required
to be neutral on matters of public concern merely
because it must permit others to be critical, there is a
difference between the government acting as speaker
and the government exerting its power to regulate or
censor its critics. Here, Respondents were not engaged
in competing speech. They filed the State Lawsuit to
punish Petitioners and deter them from exercising

7
their First Amendment rights—and should not be
shielded from liability for their unconstitutional conduct.
As amicus curiae Institute for Free Speech explained,
a governmental unit “created by a state for the better
ordering of government, has no privileges or immunities
under the Federal Constitution which it may invoke in
opposition to the will of its creator.” Williams v. Mayor
& City Council of Balt., 289 U.S. 36, 40 (1933). It is
“inconceivable that governments should assert First
Amendment rights antagonistic to the interests of
the larger community,” and doing so in this context
especially “would be standing the world on its head.”
Mark G. Yudof, WHEN GOVERNMENT SPEAKS
44, 45 (Univ. of Cal. Press 1983). See CBS, Inc. v.
Democratic Nat’l Comm., 412 U.S. 94, 139 (1973)
(Stewart, J., concurring) (“The First Amendment protects
the press from governmental interference; it confers
no analogous protection on the Government.”).
The facts and procedural posture of this case make
it an ideal vehicle to define the existence and/or scope
of state actors’ petitioning immunity. The two courts
below did not hesitate to find that Petitioners’ petitioning activity and speech are protected under the First
Amendment, and that Respondents’ SLAPP suit was
motivated by an intent to censor and retaliate against
Petitioners for those activities and was objectively a
sham.3 Additionally, this case was decided on summary
3

As shown in the Petition, even if applicable, the lower courts’
findings should have sufficed to overcome any state actor’s claim
of Noerr-Pennington immunity under both the objective and
subjective prongs of the sham exception, and certainly to defeat
summary judgment. The State Lawsuit was objectively frivolous
on the merits, and Respondents’ retaliatory animus and censorial
intent are unlawful motivators in the context of the First
Amendment.

8
judgment, so the standard of review is plenary in all
respects, and all factual inferences are drawn in
Petitioners’ favor. Accordingly, this case provides the
Court a perfect framework to answer the key question
presented: whether a citizen who has made out a First
Amendment retaliation claim against state actors can
be denied a remedy under § 1983 because his state
actor attackers are entitled to invoke their own
supposed First Amendment petitioning immunity.
B. Respondents’ Attempts to Argue that
There Was No State Action Are a
Misleading Smokescreen
Lacking any satisfactory reply to the questions
presented, Respondents attempt to divert the Court’s
attention, setting up and knocking down a straw man
by rewriting the questions presented to presuppose
that their filing of the retaliatory State Lawsuit
did not involve state action by any of them. But
Respondents’ portrayal of the posture of the case is
inaccurate, and their implication that the issue is
before this Court or is a barrier to reviewing the Third
Circuit’s actual holding is false. Instead, the Third
Circuit (and the district court) assumed for purposes
of their Noerr-Pennington analysis that defendants
were state actors and proceeded to address the issues
as to which petitioners seek review here.
Indeed, the district court had no hesitation in concluding that PSBA was a state actor, and its reasoning
warrants reproduction here:
Defendants argue that they are not state
actors, because their state suit “is not a
government function” and PSBA is not under
the “control of the state.” In response,
plaintiffs contend that defendants are state

9
actors under the “entwinement” standard
applied by the Supreme Court in Brentwood
Academy v. Tennessee Secondary School
Athletic Association, 531 U.S. 288, 295 (2001).
For the reasons stated below, the Court
agrees with plaintiffs.
In Brentwood, the Supreme Court concluded
that a state athletic association of public and
private high schools acted under color of state
law because the “private character of the
Association was overborne by the pervasive
entwinement of public institutions and public
officials in its composition and workings.” 531
U.S. at 298. The Supreme Court reached that
conclusion because 84% of the Association’s
members were public schools, each school
was entitled to vote for the members of the
Association’s governing board, and the Association’s governance of “interscholastic athletics
obviously played an integral part in the public
education of Tennessee.” Id. at 299-300.
The same analysis applies in this case. Although
PSBA is a private entity, its membership is
composed entirely of public schools represented by their school board officials. As in
Brentwood, those schools vote for the members of the PSBA’s Governing Board, each of
whom must also serve as an elected school
board official. Furthermore, the PSBA, at the
direction of its board, provides key services to
its public school members, including legal
advice, lobbying of the state legislature, and
the filing of the state suit at issue in this
case. Taking the allegations of the Verified
Complaint as true, the Court concludes,

10
pursuant to Brentwood, that defendants are
state actors for purposes of plaintiffs’ First
Amendment claims.
App. 81a-82a (cleaned up). In addition, Petitioners at
all times pursued the additional and alternative
theory that, even if PSBA were not itself a state actor,
each of the governing board directors—who held their
offices solely by virtue of their status as publicly
elected school board directors of PSBA-member public
school districts—were acting under color of state law
in directing PSBA to file and maintain the State
Action.
Thus, the fact that “neither the District Court nor
the Third Circuit issued a ﬁnal ruling whether PSBA
or its Governing Board members are state actors”
as Respondents emphasize (at 1) is misleading. The
district court did rule—and the Third Circuit did not
question—that Respondents are state actors. Respondents are thus raising an issue that they lost below to
argue against certiorari. But they did not file a crosspetition, so the issue is not before this Court and is not
a basis for denying the Petition.4
Ultimately, the district court and the Third Circuit
found it unnecessary to expend any further effort on
the question of Respondents’ status as state actors.
Respondents at all times were acting under color of
state law. Their decision to silence Petitioners through
4

Although the issue of state action is not before the Court, it
bears noting that Petitioners amassed further evidence supporting a finding of state action under both the “pervasive entwinement” and concerted action theories. These materials are sumarized in Petitioners’ Proposed Findings of Fact and Proposed
Conclusions of Law filed with the district court (at ECF Nos. 40
and 40-1).

11
a civil lawsuit is subject to scrutiny under the First
Amendment. On this score, the district court and the
Third Circuit agreed.
This case presents an enormously important First
Amendment issue: if state actors retaliate against
protected speech through the use of civil proceedings,
can they then invoke the Noerr-Pennington doctrine to
completely evade accountability for their actions? The
circuits are split and this case clearly and cleanly
presents this question.
CONCLUSION
For the foregoing reasons and those stated in the
petition for a writ of certiorari, the petition should be
granted.
Respectfully submitted,
JACOB C. COHN
ILAN ROSENBERG
GORDON & REES
1717 Arch Street
Philadelphia, PA 19103
(215) 717-4004

ERWIN CHEMERINSKY
Counsel of Record
215 Bancroft Way
Berkeley, California 94720
(510) 642-6483
echemerinsky@berkeley.edu

Counsel for Petitioners
May 28, 2021

